                                   SOCIAL SECURITY
MEMORANDUM

Date:   March 12, 2009                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Contract for the Benefit Offset National Demonstration Project with Abt Associates,
        Incorporated (A-05-08-18041)


        The attached final report presents the results of our audit. Our objectives were to
        (1) review the services provided by Abt Associates, Incorporated, under Contract
        Number SS00-04-60110 and the related costs charged to the Social Security
        Administration for adherence to the negotiated contract terms and applicable
        regulations and (2) ensure the Agency received the goods and services for which it
        contracted.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.


                                                       S
                                                       Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          CONTRACT FOR
       THE BENEFIT OFFSET
NATIONAL DEMONSTRATION PROJECT
WITH ABT ASSOCIATES, INCORPORATED

     March 2009   A-05-08-18041




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 Executive Summary
OBJECTIVE
The objectives of our audit were to (1) review the services provided by Abt Associates,
Incorporated, (Abt) under Contract Number SS00-04-60110 and the related costs
charged to the Social Security Administration (SSA) for adherence to the negotiated
contract terms and applicable regulations and (2) ensure SSA received the goods and
services for which it contracted.

BACKGROUND
SSA contracted with Abt to develop the Benefit Offset National Demonstration (BOND)
project to test alternate methods of treating work activity in the Title II disability program.
The contract states that after the design is completed, subsequent phases of this
demonstration are to be awarded to the same contractor on a sole-source basis for the
project’s implementation, data collection, and evaluation and management. This award
will be contingent upon successful performance of the design phase. A $2.4 million
cost-plus-fixed-fee contract was awarded to Abt with a period of performance from
September 2004 to September 2006. Because of contract modifications and additional
task orders, the contract was extended to September 2008 at a total cost of
approximately $10.6 million.

To inform the BOND design phase, SSA awarded four separate contracts for a total
cost of $3.9 million in what was called the Four-State Pilot. The contracts were
awarded to Connecticut, Utah, Vermont and Wisconsin. The Pilot was to be a 2-year
demonstration project expected to end in April 2007. However, numerous contract
modifications have extended the contract through April 2009 at an estimated cost of
$8.4 million.

RESULTS OF REVIEW
We found that Abt generally adhered to the terms of the contract and delivered the
services and final design options that SSA asked for under the contract. However, we
have several concerns about the delays and costs associated with the design phase.
While SSA is required by law to continue with the demonstration project, we are
concerned that the multiple modifications extended the contract period from 2 to
4 years, and the design phase costs increased to $10.6 million, or $8.2 million more
than initially expected. We believe approximately $5.3 million, or half of the total costs,
could have been put to better use had the contract been better focused and completed
within the initial timeframe. The delay of the BOND design phase also led to additional
costs under the Four-State Pilot, or $4.5 million more than initially expected. As a
result, during our audit period, the obligated cost for BOND and the Four-State Pilot was
approximately $19 million, considerably more than the planned combined costs of
$6.3 million.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)       i
                               Initial Design                                         Increase
       Contract                    Costs1              Obligated Costs1              (Percent)2
 BOND                          $2.4 million              $10.6 million                  342
 Four-State Pilot              $3.9 million               $8.4 million                  115
 Totals                        $6.3 million              $19.0 million                  202
Note 1: Design costs also include pre-implementation costs added by SSA management.
Note 2: Percent increases do not total since each calculation is specific to each set of costs.


Prior SSA management demonstrated inadequate oversight of the contract's
planning, scope and expenditures. While current SSA management attempted to
streamline the BOND project's design, financial monitoring of the project was
inadequate. For instance, while the Office of Management and Budget requires
enhanced controls over cost-reimbursement contracts, in our review of invoices, we
were unable to determine whether the contractor over- or under-billed for a specific task
due. Furthermore, the contract was not monitored in a way that allowed for quickly
detecting or avoiding cost overruns for tasks. Moreover, we found that SSA did not
perform timely interim contractor performance evaluations, as required by the contract
and recommended by the Federal Acquisition Regulation (FAR).

In terms of contract coordination, the first BOND design was submitted to SSA
management before the Four-State Pilot participants formally presented their feedback
to the contractor. We believe that earlier communication between BOND and the Four-
State Pilot regarding the project’s design would have enhanced the Pilot’s usefulness to
the BOND contractor. Finally, we found that the BOND project’s current sole-source
contract lacks clear separation of duties by allowing the contractor to evaluate its own
performance.

RECOMMENDATIONS
To enhance oversight of the BOND project and future contracts of a similar nature, we
recommend that SSA:

1. Before awarding the next phase of BOND, ensure a detailed cost-benefit analysis of
   the BOND design phase has been conducted and documented to support an
   Agency decision to continue with this contractor. As a part of the analysis, the
   Agency should have (a) reviewed the current status of the project, (b) assessed
   what value the Agency received for the costs already incurred, (c) determined
   whether the entire BOND project can be completed at a reasonable cost, and
   (d) documented the Agency’s justification for the continued use of the current sole-
   source contractor as well as the type of contract being used.

2. Establish a greater degree of management oversight by strengthening contract
   oversight roles and responsibilities and more clearly defining contract requirements.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)           ii
3. Improve financial monitoring by implementing the procedures necessary to
   (a) identify the work for which the contractor is requesting payment and (b) maintain
   documentation to prove to an outside party that value was received for the money
   expended.

4. Conduct and document interim and final evaluations of the contractor’s performance
   in accordance with the contract and as recommended by the FAR.

5. Ensure timely and meaningful participation occurs with other parties associated with
   the demonstration project, such as the States involved in the Four-State Pilot, to
   enhance the total project.

6. Ensure the evaluation phase of the BOND contract is conducted by an independent
   party.

AGENCY COMMENTS
With the exception of Recommendations 3 and 6, SSA generally agreed with our report
and recommendations. SSA stated it had made changes to improve the overall
management of the project as it moves toward implementation. Regarding
Recommendation 3, SSA disagreed with the wording of this recommendation and
believes it refers to its ability to monitor the work for which the contractor requested
payment, not just recordkeeping. SSA stated that different contractors report and bill
differently. SSA noted that, in this contract, the combination of the monthly invoices, the
monthly progress reports, and the close communication between the Contract Officer
Technical Representative and the contractor’s project director provided enough
information to determine that the contractor was billing correctly for each task.
Regarding Recommendation 6, SSA disagreed with our recommendation and believes
any future contract, with appropriate built-in safeguards, can provide adequate
mitigation against conflicts of interest. SSA further indicated that the FAR allows the
Agency to avoid, neutralize, or mitigate conflicts of interest. SSA believes it has
appropriate mitigation strategies. See Appendix H of this report for SSA's full
comments.

OIG RESPONSE
We commend SSA for the actions already taken to improve oversight of the BOND
contract. We continue to believe Recommendation 3 would enhance the level of
financial monitoring and minimize the risk that a contractor is over- or under-billing for
specific tasks. The current financial monitoring process places too much reliance on the
contractor and does not allow for independent reconciliation of costs back to the
contract tasks and deliverables. We also believe Recommendation 6, regarding the
involvement of an independent party during the evaluation phase, would ensure a clear
separation of duties. Assigning the evaluation phase to the same contractor performing
the design and implementation work could potentially compromise an independent
assessment of the BOND project in appearance or fact. In a time of increased scrutiny


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)   iii
of taxpayer funds and calls for greater oversight of Federal programs and contracts, we
believe the Agency needs to adopt stronger controls over a contract estimated to cost
taxpayers approximately $100 million. In the report, we also cite FAR warnings about
the risks of cost-plus-fixed-fee contracts as well as the Office of Management and
Budget’s requirements for greater management oversight when contracts involve
inherently governmental functions. Given these concerns, we believe the Agency
should take extra steps to ensure an independent evaluation of the BOND project.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)   iv
                                                                     Table of Contents
                                                                                                               Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Status of the Design Contract ..............................................................................3

        Design Contract Costs..................................................................................3
        Design Contract Timeliness..........................................................................3
        Design Contract Tasks and Design Modifications ........................................4
        Cost of Full Implementation ..........................................................................7
        Evaluation Phase..........................................................................................7

Contract Costs, Deliverables and Oversight ......................................................8

Role of the Four-State Pilot ................................................................................11

Management of the Bond Design Contract .......................................................12

CONCLUSIONS AND RECOMMENDATIONS.....................................................14

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Background on the Benefit Offset National Demonstration Design
APPENDIX C – Contracting Duties
APPENDIX D – Scope and Methodology
APPENDIX E – Benefit Offset National Demonstration Contract Timeline
APPENDIX F – Benefit Offset National Demonstration Contract Modifications
APPENDIX G – Benefit Offset National Demonstration Tasks and Deliverables
APPENDIX H – Agency Comments
APPENDIX I – OIG Contacts and Staff Acknowledgments




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                                                                            Introduction
OBJECTIVE
The objectives of our audit were to (1) review the services provided by Abt Associates,
Incorporated, (Abt) under Contract Number SS00-04-60110 and the related costs
charged to the Social Security Administration (SSA) for adherence to the negotiated
contract terms and applicable regulations and (2) ensure that SSA received the goods
and services for which it contracted.

BACKGROUND
SSA contracted with Abt 1 to develop the multi-site Benefit Offset National
Demonstration (BOND) project that tests alternate methods of treating work activity in
the Title II disability program. 2 The contract states that after the design is complete,
subsequent phases of this demonstration are to be awarded to the same contractor on
a sole-source basis for the implementation, data collection and evaluation and
management of the project. This award will be contingent upon successful performance
of the design phase. The cost-plus-fixed-fee contract was awarded for $2.4 million, 3
with a period of performance from September 30, 2004 to September 29, 2006. 4 With
contract modifications and additional task orders, the total contract award was
approximately $10.6 million and extended to September 29, 2008.

SSA selected Abt to assist with the design of all phases of the BOND project. The
demonstration was to test the effects of replacing the current benefit reduction facing
Disability Insurance (DI) beneficiaries who return to work with a more gradual
$1 reduction in benefits for every $2 in earnings (the benefit offset). According to the
contract, 5 this benefit offset was to be tested alone and in combination with employment

1
 Abt was one of two contractors that submitted a bid for the project. Abt’s bid was approximately
$2.7 million lower than the other contractor.
2
  Congress authorized BOND, a $1 for $2 benefit offset demonstration, in the Ticket to Work and Work
Incentives Improvement Act of 1999, Pub. L. No. 106-170, § 302, 42 U.S.C. § 434 note. BOND, as with
other demonstration projects, has been funded via the DI Trust Fund. See Appendix B for a full
description of the BOND project.
3
 Federal Acquisition Regulation (FAR), 48 Code of Federal Regulations (C.F.R.) § 16.306 states, “A cost-
plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the contractor of a
negotiated fee that is fixed at the inception of the contract. The fixed fee does not vary with actual cost,
but may be adjusted as a result of changes in the work to be performed under the contract.” The FAR
notes, “This contract type permits contracting for efforts that might otherwise present too great a risk to
contractors, but it provides the contractor only a minimum incentive to control costs.”
4
    See Appendix C for more on SSA’s contracting duties.
5
 BOND Contract, Section C, Description/Specification/Work Statement, Part C-1: Purpose of the
Contract.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                   1
support models intended to provide further assistance to DI beneficiaries returning to
work. The estimated impact of the benefit offset was to be applicable nationwide and
should represent the collective effects of the benefit offset on a wide range of local
circumstances and groups. 6

To inform the BOND design phase, SSA awarded four separate contracts for a total
cost of $3.9 million as the Four-State Pilot. 7 The contracts were awarded to
Connecticut, Utah, Vermont and Wisconsin. The Pilot was to be a 2-year demonstration
project from April 2005 to April 2007. However, numerous contract modifications have
extended the contract through April 2009 at an estimated cost of $8.4 million. 8

Our audit focused on how effectively and efficiently SSA and the contractor managed
the contract. As a part of this audit, we interviewed SSA and Abt staff associated with
the contract, interviewed State representatives from the associated Four-State Pilot,
and reviewed the contract and related documentation (vendor invoices and task and
delivery order information) supporting payments to Abt covering the period from
September 2004 through January 2008 (see Appendix D for our full methodology).




6
 BOND Contract, Section C, Description/Specification/Work Statement, Part C-1: Purpose of the Contract
and Part C-2: The Ticket to Work and Work Incentives Improvement Act of 1999.
7
 The Benefit Offset Pilot Demonstration Project, simply called the “Four-State Pilot,” relates to SSA
contracts with four States—Connecticut (Contract Number SS00-05-60010), Utah (Contract Number
SS00-05-60007), Vermont (Contract Number SS00-05-60009) and Wisconsin (Contract Number
SS00-05-60008).
8
 Our audit did not include a full review of the Four-State Pilot contracts. However, because of its close
association with BOND, we did conduct limited work associated with this program.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                     2
                                                             Results of Review
The contractor generally adhered to the terms of the contract and delivered the services
and final design options that SSA requested under the contract. However, multiple
modifications extended the contract period from 2 to 4 years, and obligated costs for the
design phase increased to $10.6 million, or $8.2 million more than initially expected. In
addition, the delay of the BOND design phase led to additional costs under the Four-
State Pilot, or $4.5 million more than initially expected. In terms of contract
management, prior SSA management demonstrated inadequate oversight of the
contract's planning, scope and expenditures. And while current SSA management
attempted to streamline the BOND project's design, financial monitoring of the project
was inadequate. Furthermore, prior and current SSA management did not monitor the
contract in a way that allowed for quickly detecting or avoiding cost overruns for tasks.
Moreover, we found that SSA management had not performed timely contractor
performance evaluations, as required by the contract and recommended by the FAR. In
terms of contract coordination, we believe that earlier communication between BOND
and the Four-State Pilot regarding the project’s design would have enhanced the Pilot’s
usefulness to the BOND contractor. Finally, we found that the sole-source contract
lacked clear separation of duties by allowing the contractor to evaluate its own
performance.

STATUS OF THE DESIGN CONTRACT

We considered a number of factors in assessing the status of the design phase
contract, including (1) contract costs, (2) contract timeliness, (3) contract tasks and
modifications, (4) full implementation costs, and (5) plans for the evaluation phase of the
contract.

Design Contract Costs

The BOND project’s design phase contract costs had increased significantly. 9 While
the initial contract was awarded in September 2004 for approximately $2.4 million, later
modifications 10 increased obligated costs by approximately 340 percent to about
$10.6 million. Hence, the contract exceeded the initial estimate by at least $8.2 million.

Design Contract Timeliness

The contract was awarded on September 30, 2004 with a projected completion date of
September 29, 2006. The final contract modification added new tasks and deliverables



9
    These design phase costs also include pre-implementation costs, which we discuss later in this report.
10
     See Appendix E for a timeline on the contract changes and Appendix F for a list of modifications.



Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                      3
and extended the contract period of performance through September 29, 2008. 11 As a
result, the design contract was completed 2 years after the planned completion date.

Design Contract Tasks and Design Modifications

The number of tasks under the BOND design contract had tripled since the initial
contract, although SSA management later eliminated some of the added tasks. The
September 2004 contract included eight tasks and associated deliverables. As of
August 2008, the contract had undergone major changes resulting in 16 additional
tasks 12 as well as new costs associated with project management. 13 These additional
contract modifications occurred at a number of points in the process, including
(1) before the due date of the initial contract, (2) after the contract moved into
implementation, 14 and (3) after later management adjustments to the original design. 15

Modifications Before Contract Due Date

SSA added two new pieces to the design contract before September 2006, when the
contract was to be completed. One modification, added in September 2005, related to
early intervention with pilot participants. 16 The second modification, added in
August 2006, added health benefits to the design and extended the contract period to
December 2006. Both of these modifications, if approved by management as part of
the final design, would have significantly increased the cost of implementing BOND.



11
     Ibid.
12
     See Appendix G for a list of contract tasks.
13
  In January 2007, the BOND contractor began to reflect “Management” as a cost category along with
the other tasks in its progress report. According to the BOND project officer, “Management” costs
represented time spent by the contractor’s Project Director, Deputy Project Director, and Finance and
Contract Administrator on such administrative functions as budget preparation, invoice checking and
approval, and processing multiple contract modifications. For the full list of “Management” functions, see
Appendix G.
14
  The initial BOND contract statement of work noted “Should SSA decide to proceed with the next phase,
the contractor may also be required to integrate the transition from the design phase of the contract to the
implementation and evaluation phases. Under those subsequent phases of the contract, the contactor
shall identify systems requirements, develop applications software and develop operational procedures.”
See BOND Contract, Section C, Description/Specification/Work Statement, Part C-4(d): Project
Management.
15
  SSA staff stated that these additional contract modifications resulted from (1) changes in SSA’s
program objectives for the project, (2) efforts to reduce complexity within the administration of the project,
and (3) adjustments of cost estimates to complete the project.
16
  Early intervention strategies could help disability applicants return to work rather than continue through
SSA’s disability determination process. Participants would receive a wide range of employment supports
closer to the onset of disability to maintain their connection to the workforce and prevent dependence on
cash benefits.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                      4
Modifications to Move into Implementation

In January 2007, a final design and a walk-through of the full design was provided to
SSA’s managers. As a result of the design completion, a new modification covering
pre-implementation tasks was funded in January 2007. 17 Under Modification #7, SSA
management directed the contractor to perform a series of pre-implementation tasks to
provide a bridge between the design work they had performed and the implementation
tasks they will perform once the demonstration is awarded. The new tasks 18 were to lay
the groundwork for various implementation activities including

     incorporating One-Stop Service Centers into the demonstration;
     developing Work Support Organizations (WSO);
     securing the services of a fiscal agent to administer the independence accounts;
     developing the data warehouse and benefit calculator;
     developing public information and outreach material; and
     developing a data security plan for the project that was to be approved and in place
      before the recruitment of project participants.

Although the need for pre-implementation work was anticipated at the time of the
original contract, steps were not taken to identify the costs and tasks before the decision
to proceed to the implementation phase. To illustrate, below is an excerpt from the
contract officer’s January 5, 2007 award letter for Modification #7.

          The (contract) statement of work states “should SSA decide to proceed with
          the next phase, the contractor may also be required to integrate the transition
          from the design phase of the contract to the implementation and evaluation
          phases”. As currently written, the statement of work does not specify all of the
          tasks needed for the pre-implementation stage.           Therefore, the new
          modification is necessary to provide funding to add Pre-Implementation Tasks
          to the contract. This modification adds new tasks (10-18) and deliverables
          into the statement of work and extends the period of performance for the new
          deliverables through June 30, 2007.

The Project Officers’ Contracting Handbook warns “If the statement of work does not
state exactly what is wanted, or does not state it precisely, it will generate contract
administration problems for both the project officer and the contract officer. Ambiguous




17
  All of these additional tasks were being performed under the same cost-reimbursement structure as the
design work. It was not clear when this report was prepared if the implementation phase of the contract
will remain cost-reimbursement.
18
     Modification #7 increased the contract costs by approximately $2 million (see Appendix F).



Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)               5
statements of work often result in unsatisfactory contractor performance, delays,
disputes, and higher contract costs.” 19

Later Modification by Management

In February 2007, management changes at SSA 20 led to further modification of the
design contract. 21 For example, health benefits, early intervention, and WSO pieces
were eliminated to streamline the design. 22 In addition, the target population for BOND
was expanded from Title II-only beneficiaries to concurrent beneficiaries. 23 Below is an
excerpt from an October 11, 2007 SSA project officer email concerning
Modification #13.

           We have stripped the project down to a benefit offset and possibly some
           additional changes to SSA’s rules. That means that not only will we not be
           providing health insurance, we will not be providing any of the additional work
           supports that constituted much of the previous design.…In addition, we have
           informed [the contractor] that the project now will include not just [Title II]
           disability beneficiaries but concurrent beneficiaries as well, which is a
           significant change. 24

In our December 2007 meeting with SSA and BOND contractor officials, participants
attributed these changes in contract scope to two factors: (1) SSA management
turnover and (2) a task later becoming insignificant or too complex. At the same
meeting, contract staff stated that 14 percent of total project resources, or $938,198,
had been allocated to “pre-implementation planning tasks.” 25 The pre-implementation
deliverables associated with these tasks included a number of planning documents and

19
  Department of Health and Human Services, Project Officers’ Contracting Handbook, Rev: 012303,
Section III, Pre-Solicitation Activities, Part E: The Statement of Work.
20
  Commissioner Astrue was sworn in on February 12, 2007 after Commissioner Barnhart’s term expired
on January 19, 2007. Moreover, the Deputy Commissioner for the Office of Disability and Income
Security Programs, the component responsible for demonstration projects, was replaced in March 2007.
This responsible component was later merged with the Office of Policy and the new organization became
the Office of Retirement and Disability Policy.
21
  These modifications also related to technical input from State officials involved in the Four-State Pilot,
which we discuss in the next section. See Appendix F for the full list of Contract Modifications, including
those that occurred after the SSA management changes in February 2007.
22
     See our timeline in Appendix E.
23
   Concurrent beneficiaries are individuals receiving both Title II and XVI benefits. BOND contractor
officials noted that the expansion of the project to concurrent beneficiaries will require greater outreach
efforts, additional design work, and new training manuals.

24
     The health benefit piece was officially eliminated in February 2008 in Modification #15.
25
   As of December 2007, the contract funding was $6,690,260 ($938,198 is 14 percent of $6,690,260). At
this point, Modification #7, effective January 5, 2007 and Modification #13, effective October 30, 2007,
had provided these funds.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                        6
detailed specifications, draft recruitment materials and Memorandums of
Understanding, findings from focus groups, a public information strategy and initial
public information materials for potential demonstration participants. At the same
December 2007 meeting, contractor staff stated that because of changes in the model
in January 2007, many of the deliverables associated with the $938,198 could not be
used. 26 As a result, the decision by SSA’s previous management to fund
implementation activities before final design approval (and formal initiation of the
implementation phase contract) led to unnecessary expenditures and increased project
costs.

Cost of Full Implementation

Over the life of the design phase, the estimated cost of full implementation of the BOND
project 27 has varied greatly, though management attempted to reduce its complexity
and overall costs, beginning in the spring of 2007. While SSA’s project officer indicated
that the latest estimate was $100 million, a January 2007 contractor estimate provided a
range of costs that went as high as $1.6 billion. 28 In April 2007, SSA and the contractor
modified the project design and estimated implementation costs to range from
approximately $242 to $309 million. By May 2007, the estimates were reduced further
and ranged from $82 to $198 million. The implementation cost estimates have varied
widely because of the numerous modifications that were added and then deleted, such
as health benefits, early intervention, and work support.

Evaluation Phase

The contract states, “After the design is completed, subsequent phases of this
demonstration will be awarded to the same contractor on a sole-source basis for the
implementation, data collection and evaluation and management of the project.” 29 This
evaluation will occur both during and after the implementation phase and assess the
project’s outcomes and implementation process.




26
  The project officer indicated that some of the deliverables continue to be useful for the project under the
revised design.
27
     Full implementation costs would include the design, implementation and evaluation costs.
28
 This $1.6-billion design called for a number of additions, such as health benefits, early intervention, and
work support.
29
 BOND Contract, Section C, Description/Specification/Work Statement, Part C-1: Purpose of the
Contract.



Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                    7
Although current management favors the award of the implementation and evaluation
phases to the current contractor on a sole-source basis, we are concerned that this
model lacks clear separation of duties 30 and may introduce a conflict of interest by not
engaging an independent party to evaluate the BOND project. The FAR 31 also states
that contracts should prevent the existence of conflicting roles that might bias a
contractor’s judgment and prevent unfair competitive advantage. This evaluation piece
represents an area where open competition could produce a more reliable evaluation
report. At a minimum, we believe a full and independent evaluation of the process
needs to be performed by a party independent of the contractor. In December 2007, we
shared our concerns about the model with SSA management. In an April 14, 2008
memorandum to the Commissioner, the Deputy Commissioner for Retirement and
Disability Policy recommended that the evaluation duties remain with the current
contractor on a sole-source basis. 32 In the memorandum SSA noted:

          OIG concern on this issue is understandable. It is critical that the evaluation
          of this important project produces objective and credible results. However, we
          believe that changing the contract structure at this point in time would result in
          risk to the successful completion of the project as well as potential financial
          risk to the Agency….

CONTRACT COSTS, DELIVERABLES AND OVERSIGHT

Our review of the contract’s approximately $5 million in expenditures from September
2004 through January 2008 found the costs generally adhered to the negotiated
contract terms and applicable regulations and were approved by appropriate SSA staff,
although we could not always link the expenditure to the specific contract task. During
this period, the contractor expended approximately $5 million in funds to support work
associated with the BOND design. The project officer and the contract officer had
approved invoices associated with the approximately $5 million in expenditures through
December 2008 (see Table 1).




30
  According to the U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government GAO/AIMDD-00-21.3.1 (November 1999), p. 14, "Key duties and responsibilities need to be
divided or segregated among different people to reduce the risk of error or fraud.…No one individual
should control all key aspects of a transaction or event."
31
     FAR, 48 C.F.R. § 9.505(a).
32
  After being provided a copy of this memorandum, we again recommended in July 2008 that SSA
management obtain an independent evaluation of the BOND contract. In response, SSA indicated it
plans on hiring a team of expert consultants that will provide input on the contractor’s implementation and
program evaluation.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                   8
                                Table 1: BOND Contract Costs
                                        (as of December 2007)
                                Contract Number SS00-04-60110
                           Type of Services Provided          Amount
                    Direct Labor Costs                        $ 926,438
                    Fringe Benefits                           $ 389,097
                    Overhead                                   $ 613,193
                    Other Direct Labor:
                     Communications and Information
                      Technology                              $    83,282
                     Other Costs                              $     8,974
                     Printing                                 $     4,503
                     Purchased Services                       $    21,248
                     Travel                                   $    34,517
                    Consultant Costs                          $ 126,782
                    Subcontractor                             $ 1,900,122
                    Handling Charges                          $    73,105
                    General and Administrative Costs          $ 448,208
                    Fixed Fee                                 $ 370,358
                    TOTAL                                     $ 4,999,827

Identifying Deliverables

We found that the contractor services provided and the costs charged to SSA generally
adhered to the terms of the contract, and that SSA received the goods and services for
which it contracted based on the project officer’s acceptance of the contractor’s
deliverables. However, during our review of the invoices, we were unable to identify
most of the contract tasks and deliverables associated with the costs. For example,
Modification #7 extended the contract period to June 30, 2007, increased the contract
by $2,081,570, and added pre-implementation tasks. 33 However, we were unable to
determine which invoice(s) were associated with the tasks funded by this modification. 34

Our discussions with the project officer and the contract officer confirmed that the
current contract does not price the tasks on a per-line basis. The project officer
indicated that invoices associated with cost-reimbursement contracts are not required to
identify the contract tasks and deliverables associated with the costs. Instead, the
project officer and contract officer rely on the contractor’s budget information, which is


33
  Modification #7 added tasks for (1) developing a pre-implementation plan, (2) workforce investment
boards and One-Stop Service Centers, (3) work support organizations, (4) developing a plan for
procurement of fiscal agent, (5) interim tasks for developing the BOND data warehouse pages,
(6) developing the BOND benefit calculator, (7) developing a data security plan for BOND, (8) further
early intervention design specification, and (9) developing public information specifications. See
Appendix F for the full list of modifications.
34
  While the contractor’s invoices that were approved and paid showed itemized costs, most did not
identify the particular task or deliverable within the BOND contract.



Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                 9
separated by task in progress reports. 35 However, without maintaining its own records
regarding tasks and deliverables, or at least requiring more specific information on the
submitted invoices, SSA lacks full assurance that the contractor did not over- or under-
bill for a specific task. This is even more of an issue with this particular cost-
reimbursement contract given the multiple modifications that added and subtracted
tasks and deliverables.

Performance Reports

The FAR recommends interim evaluations of contractor performance. 36 The FAR also
requires final evaluations of contractor performance. 37 The FAR further states that the
performance evaluation and report must be shared with the contractor, who has an
opportunity to respond before the contract officer finalizes the performance report. 38
While an interim evaluation of the contractor’s performance was to be conducted under
the contract, 39 our audit found that the project officer and contract officer had not
evaluated the contractor’s performance after the 2-year period when the project was
initially set to end nor at the time of our review, approximately 4 years into the contract.

In September 2008, SSA’s contract officer completed the interim evaluation on the
design contract. The final evaluation on the design contract was conducted and
completed soon after. The contract officer stated that no plans had been made to
conduct an interim evaluation of the contractor’s performance because of the delays
and changes made to the BOND contract. Although we realize there were delays with
the design, we believe the contractor’s performance could have been evaluated earlier.

35
  BOND Contract, Section F, Deliverables or Performance, F-4: Monthly Progress Reports requires the
contractor to provide monthly progress reports that identify and describe all significant items. These
reports must contain detailed cost status information identifying, at a minimum, the commitment and cost
status for the period, total current contract value (cost-to-date), and estimated costs to complete the
project.
36
   FAR, 48 C.F.R. § 42.1502 states interim evaluations should be prepared as specified by the agencies
to provide current information for source selection purposes, for contracts with a period of performance,
including options, exceeding one year.
37
  FAR, 48 C.F.R. § 42.1502(a) states that except as provided in paragraph (b) of this section, agencies
shall prepare an evaluation of contractor performance for each contract that exceeds the simplified
acquisition threshold at the time the work under the contract is completed. Paragraph (b) discusses
evaluation requirements for contracts related to construction projects, architect/engineer projects, and
nonprofit agencies employing people who are blind or severely disabled.
38
   FAR, 48 C.F.R. § 42.1503(b) states Agency evaluations of contractor performance prepared under this
subpart shall be provided to the contractor as soon as practicable after completion of the evaluation.
Contractors shall be given a minimum of 30 days to submit comments, rebutting statements, or additional
information.
39
  BOND Contract, Section G, Contract Administration Data, G-9 states “Interim and final evaluations of
contractor performance shall be conducted on this contract in accordance with FAR 42.15, and will be
prepared using the National Institutes of Health Contractor Performance System. The final performance
evaluation shall be completed at the time of completion of work.”



Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                 10
The failure to perform interim and final evaluations of the contractor’s performance
increases the risk that potential performance problems will remain unnoticed and impact
future phases of the project.

ROLE OF THE FOUR-STATE PILOT

In April 2005, SSA awarded $3.9 million for a Four-State Pilot 40 involving Connecticut,
Utah, Vermont and Wisconsin. 41 The demonstration was to test the effects of replacing
the current benefit reduction facing DI beneficiaries who return to work with a more
gradual $1 reduction in benefits for every $2 in earnings (the benefit offset). 42 This
Four-State Pilot was to be a 2-year demonstration project to assist with the BOND
design phase and was expected to end in March or April 2007. 43 However, numerous
contract modifications have extended the contract through April 2009 at an estimated
cost of $8.4 million, or $4.5 million more than initially expected. 44 This extension was in
tandem with the extension of the BOND design phase, allowing the four States to
continue developing their evaluation data and provide technical advice to SSA and the
contractor. 45

We believe the Four-State Pilot represented a useful model for similar projects, though
earlier communications with the States regarding the project’s design would have
enhanced its usefulness to SSA. In March 2007, after the final BOND design had been
submitted to former SSA management, SSA and the BOND contractor held a
conference with the Four-State Pilot managers to identify and analyze the most
significant lessons learned by the four States. The conference participants provided
input on the BOND design and discussed potential pitfalls. For example, some State
participants counseled against too much complexity in the early intervention piece of the
implementation. 46 We interviewed officials from the States involved in the project in

40
  The purpose of this project was to determine the effect of various interventions in combination with a
benefit offset on employment outcomes including wages, benefits, hours worked and job retention.
41
   Three of the four States (Connecticut, Vermont and Wisconsin) contacted SSA and expressed interest
in performing a pilot. SSA approved the Four-State Pilot after internal discussions of whether there were
advantages of initiating such a pilot.
42
  Congress authorized the Four-State Pilot, a $1 for $2 benefit offset demonstration, in the Ticket to Work
and Work Incentives Improvement Act of 1999, Pub. L. No. 106-170, § 302, 42 U.S.C. § 434 note.
43
 The purpose of this contract was to develop State-run voluntary demonstration projects to test alternate
work incentives for individuals receiving Title II disability benefits.
44
  SSA indicated that a significant portion of the costs associated with the Four-State Pilot related to
implementation and management of the individual projects. As a result, they believe these costs are
operational costs and should not be considered BOND design costs.
45
   A State official we interviewed in February 2008 indicated that it is important to keep the momentum
and dedication associated with the State pilots going. The official suggested that SSA not allow too much
time to elapse between the end of the Four-State Pilot and the implementation of BOND.
46
     In June 2007, SSA dropped the early intervention task in the design contract.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                    11
February 2008. One of the officials we interviewed indicated that if the States had met
with SSA and the BOND contractor sooner, less time would have been spent on a
design that was not practical because of its complexity. In addition, our review of the
contract documents show limited interaction between the BOND contractor and the four
States.

MANAGEMENT OF THE BOND DESIGN CONTRACT

As noted earlier, the BOND design phase contract, as well as the associated Four-State
Pilot, has experienced significant delays and cost increases since the start of each
project (see Table 2). The numerous modifications to the BOND project indicate that
current and former SSA management has been indecisive regarding the requirements
and costs of this contract. The expanded tasks and numerous modifications (including
modifications of modifications) to the BOND contract indicate either a lack of planning or
a lack of direction during the design phase. In addition, the current cost reimbursement
sole-source contract does not encourage either cost containment or timely delivery
since (1) all costs are ultimately reimbursed by SSA and (2) the same contractor is
implementing its own design. Finally, assigning the evaluation phase to the same
contractor performing the design and implementation work does not ensure an
independent review of the BOND project and its results.

     Table 2: History of Costs Associated with BOND and the Four-State Pilot
                                           (as of June 2008)
                                 Initial Design                                        Increase
           Contract                  Costs1           Obligated Costs1                (Percent)2
      BOND                        $2.4 million              $10.6 million                342
      Four-State Pilot            $3.9 million               $8.4 million                115
      Totals                      $6.3 million              $19.0 million                202
     Note 1: Design costs also include pre-implementation costs added by SSA management.
     Note 2: Percent increases do not total since each calculation is specific to each set of costs.

Office of Management and Budget (OMB) Policy Letter 93-1 offers guidance to ensure
that good management practices are followed. 47 This Policy Letter establishes
Government-wide policy, assigns responsibilities and provides guiding principles for
Executive Departments and agencies in managing the acquisition and use of services.
In terms of management oversight of service contracts, the letter states “Agency
officials need to be able to make sound judgments on what the requirements should be,
the estimated costs, and whether the contractor is performing according to the contract
terms and conditions.” The OMB Policy Letter further notes that “Agency officials must
also provide an enhanced degree of management controls and oversight when
contracting for functions that closely support the performance of inherently
Governmental functions.” 48

47
 OMB Policy Letter 93-1 (Reissued February 14, 2006), Management Oversight of Service Contracting,
May 18, 1994.
48
  BOND will be influencing the SSA benefits paid to individuals, even though SSA staff will be performing
the actual calculations.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                12
We acknowledge that SSA underwent a change in management during this contract,
and many of the issues discussed in this review relate to prior management. For
example, most of the major additions to the design (and overall cost of implementation),
such as health benefits, early intervention, and work support organization activities,
were added before the involvement of current management. Moreover, the premature
expenditures for pre-implementation activities came at a time when the prior
management had approved the design. Finally, the meeting between the BOND
contractor and the Four-State Pilot participants should have occurred before the arrival
of new management since this would have enhanced the final design submitted in
January 2007.

With this said, we still have concerns about recent changes. After the change in
management, the BOND design’s scope was expanded to include concurrent
beneficiaries, which was a significant change from the earlier model. Moreover, the
design phase was extended and completed as of September 29, 2008. Further, the
evaluation phase of the BOND project was still part of the sole-source contract at the
time of our review and SSA management has not decided to change this structure.

Though SSA estimated the design phase would have been completed in
September 2006 at a cost of $2.4 million, as we noted earlier, the current obligated
costs associated with the design phase are now approximately $10.6 million. We
believe that approximately half of these costs, or $5.3 million, could have been put to
better use had SSA management properly planned and monitored this contract. 49 In
light of the history of changing requirements and increasing costs, we believe
management must provide an enhanced degree of management controls and oversight
to ensure timely implementation of the project.




49
  While a portion of these “design” costs were used for pre-implementation activities, this was at a time
that (1) the final design was still being developed, (2) pre-implementation costs were being used (and
possibly wasted) for a changing design, and (3) the invoicing of all costs were not specific to the tasks
being performed. In addition, the $5.3 million figure does not include any additional costs that have been
incurred as a result of extending the Four-State Pilot.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                 13
                                                     Conclusions and
                                                    Recommendations
The contractor generally adhered to the terms of the contract and delivered the services
and final design options that SSA asked for under the contract. While SSA is required
by law to continue with the demonstration project, we have several concerns about the
delays and costs associated with the design phase that should be reviewed by Agency
managers before moving into the implementation phase. During this period, prior SSA
management provided inadequate oversight of the contract concerning the planning,
scope and expenditures, and current SSA management did not address financial
monitoring issues. For example, the contract was not monitored in a way that allowed
for quickly detecting or avoiding cost overruns for tasks, nor was the contractor’s
performance timely evaluated. In terms of contract coordination, the initial BOND
design was submitted to former SSA management before the Four-State Pilot formally
presented its feedback to the contractor. Earlier communication between BOND and
the Four-State Pilot regarding the project’s design would have been more useful to the
contractor. Finally, we found that the current sole-source contract lacks clear
separation of duties by allowing the contractor to evaluate its own performance.

To enhance oversight on the BOND project and future contracts of a similar nature, we
recommend that SSA:

1. Before awarding the next phase of BOND, ensure a detailed cost-benefit analysis of
   the BOND design phase has been conducted and documented to support an
   Agency decision to continue with this contractor. As a part of the analysis, the
   Agency should have (a) reviewed the current status of the project, (b) assessed
   what value the Agency received for the costs already incurred, (c) determined
   whether the entire BOND project can be completed at a reasonable cost, and
   (d) documented the Agency’s justification for the continued use of the current sole-
   source contractor as well as the type of contract being used

2. Establish a greater degree of management oversight by strengthening contract
   oversight roles and responsibilities and more clearly defining contract requirements.

3. Improve financial monitoring by implementing the procedures necessary to
   (a) identify the work for which the contractor is requesting payment and (b) maintain
   documentation to prove to an outside party that value was received for the money
   expended.

4. Conduct and document interim and final evaluations of the contractor’s performance
   in accordance with the contract and as recommended by the FAR.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)   14
5. Ensure timely and meaningful participation occurs with other parties associated with
   the demonstration project, such as the States involved in the Four-State Pilot, to
   enhance the total project.

6. Ensure the evaluation phase of the BOND contract is conducted by an independent
   party.

AGENCY COMMENTS
With the exception of Recommendations 3 and 6, SSA generally agreed with our report
and recommendations. SSA stated it had already made changes to improve the overall
management of the project as it moves toward implementation. Regarding
Recommendation 3, SSA disagreed with the wording of this recommendation and
believe it refers to its ability to monitor the work for which the contractor requested
payment, and not just recordkeeping. SSA stated that different contractors report and
bill differently. SSA noted that, in this contract, the combination of the monthly invoices,
the monthly progress reports, and the close communication between the Contract
Officer Technical Representative and the contractor’s project director provided enough
information to determine the contractor was billing correctly for each task. Regarding
Recommendation 6, SSA disagreed with our recommendation and believes any future
contract, with appropriate built-in safeguards, can provide adequate mitigation against
conflicts of interest. SSA further indicated that the FAR allows the Agency to avoid,
neutralize, or mitigate conflicts of interest. SSA believes it has appropriate mitigation
strategies. See Appendix H of this report for SSA's full comments.

OIG RESPONSE
We commend SSA for the actions already taken to improve oversight of the BOND
contract. We continue to believe Recommendation 3 would enhance the level of
financial monitoring and minimize the risk that a contractor is over- or under-billing for
specific tasks. The current financial monitoring process places too much reliance on the
contractor and does not allow for independent reconciliation of costs back to the
contract tasks and deliverables. We also believe Recommendation 6, regarding the
involvement of an independent party during the evaluation phase, would ensure a clear
separation of duties. Assigning the evaluation phase to the same contractor performing
the design and implementation work could potentially compromise an independent
assessment of the BOND project in appearance or fact. In a time of increased scrutiny
of taxpayer funds and calls for greater oversight of Federal programs and contracts, we
believe the Agency needs to adopt stronger controls over a contract estimated to cost
taxpayers approximately $100 million. In the report, we also cite FAR warnings about
the risks of cost-plus-fixed-fee contracts as well as the Office of Management and
Budget’s requirements for greater management oversight when contracts involve
inherently governmental functions. Given these concerns, we believe the Agency
should take extra steps to ensure an independent evaluation of the BOND project.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)   15
                                             Appendices




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                                                                             Appendix A

Acronyms
 Abt                   Abt Associates, Incorporated
 BOND                  Benefit Offset National Demonstration
 C.F.R.                Code of Federal Regulations
 COTR                  Contract Officer Technical Representative
 DI                    Disability Insurance
 EI                    Early Intervention
 FAR                   Federal Acquisition Regulation
 OAG                   Office of Acquisition and Grants
 OF                    Office of Finance
 OMB                   Office of Management and Budget
 SGA                   Substantial Gainful Activity
 SSA                   Social Security Administration
 U.S.C.                United States Code
 WSO                   Work Support Organizations




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                                                                               Appendix B

Background on the Benefit Offset National
Demonstration Design
The following background information was provided in the Benefit Offset National
Demonstration (BOND) contract (Contract Number SS00-04-60110).

Purpose of BOND

In this demonstration project, the Social Security Administration (SSA) plans to test a
$1 reduction in benefits for every $2 in earnings in combination with other changes to
SSA’s rules, with the goal of enabling more beneficiaries to return to work and maximize
their employment, earnings, and economic independence. Unlike current Title II policy,
the benefit offset would allow beneficiaries to face a gradual reduction in their benefits
should they earn above a specified amount of monthly income. Participating
beneficiaries would also maintain ongoing eligibility for health care benefits and other
supports linked to Title II eligibility.

SSA anticipates that a strategy of combining various changes to SSA’s rules with a
benefit offset will reduce barriers to work and allow beneficiaries with disabilities to
increase their employment, earnings, and independence. Participants in the benefit
offset demonstration will be able to take advantage of the interventions offered, without
the possibility of losing all their cash benefits if they have earnings even minimally
above the Substantial Gainful Activity (SGA) level. 1 Just as importantly, participants
earning above SGA will maintain ongoing Medicare coverage eligibility.

The Ticket to Work and Work Incentives Improvement Act of 1999

The BOND project was initiated under The Ticket to Work and Work Incentives
Improvement Act of 1999, Public Law No. 106-170 § 302, 42 U.S.C. § 434 note (the
Act), signed into law on December 17, 1999. One of the major congressional findings
cited in the Act is that, despite recent changes in public law and assistive technologies
that have provided historic employment opportunities for the disabled, and the desire of
many beneficiaries with disabilities to work and support themselves, fewer than one-half
of 1 percent of Social Security Disability Insurance (DI) (and other beneficiaries
receiving disability benefits under the Title II program) and Supplemental Security
Income recipients leave the rolls due to work. In addition, the findings state that
“beneficiaries cite financial disincentives to work and earn income” 2 as a barrier to
employment. For example, one financial disincentive that is often cited is the abrupt

1
  SGA relates to the amount of earnings SSA has determined to be substantial enough to make a person
ineligible for benefits.
2
    Public Law No. 106-170 § 2(a)(9), 42 U.S.C. § 1320b-19(a)(9) note.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)          B-1
loss of all cash benefits in the Title II disability program, frequently termed the “cash
cliff.” Under current law, Title II disability beneficiaries are allowed a 9-month period of
trial work in which they may have earnings of any amount with no effect on their
benefits. After the trial work period (and a brief grace period), however, beneficiaries
who are determined to be engaging in SGA lose their entire benefit and face the
eventual loss of Medicare benefits as well. Current law provides for at least 7 ¾ years
of Medicare coverage beyond the trial work period for beneficiaries who return to work.

Among other things, the Act requires that SSA undertake a series of demonstration
projects or experiments to test alternatives to current program work incentives.
Section 301 amended the Social Security Act by adding section 234. 3 Section 234(a)
directs the Commissioner of SSA to carry out experiments and demonstration projects
to determine the relative advantages and disadvantages of (1) various alternate
methods of treating work activity of individuals receiving Title II benefits based on
disability, including such methods as a reduction in benefits based on earnings,
designed to encourage these beneficiaries to return to work; (2) altering other limitations
and conditions, such as lengthening the trial work period, or altering the 24-month
waiting period for Medicare; and (3) implementing a sliding scale benefit offset. This
section also requires that these demonstration projects be designed to show that
savings will accrue to the Trust Funds or will otherwise promote or facilitate the
administration of Title II. Section 234(b) also provides that these projects must be
conducted in a manner that will allow SSA to evaluate the appropriateness of
implementing such a program on a national scale.

Section 234(c) allows the Commissioner of SSA to waive compliance with the benefit
provisions of Title II of the Social Security Act (42 United States Code [U.S.C.]
§ 401 et seq.), and the requirements of section 1148 of the Act (42 U.S.C. § 1320b-19)
as they relate to the Ticket to Work program, and the Secretary of Health and Human
Services to waive compliance with the benefit requirements of Title XVIII of the Social
Security Act (42 U.S.C. § 1395 et seq.), insofar as is necessary for a thorough
evaluation of the alternate methods under consideration.




3
    42 U.S.C. § 434.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)   B-2
                                                                                Appendix C

Contracting Duties
The contract officer, appointed by the Office of Acquisition and Grants (OAG), 1 is
responsible for awarding and administering Social Security Administration (SSA)
contracts. The contract officer requires Team Leader or Division Director approval on
modifications and new awards that exceed $100,000. For the Abt Associates,
Incorporated, contract, all modifications exceeding $100,000 require the approval of the
Division Director. Any required contract revisions must be transmitted to the contractor
over the signature of the contract officer.

The project officer, an employee in SSA’s Office of Retirement and Disability Policy, is
responsible for the technical administration of the contract. The project officer is
responsible for determining whether supplies or services delivered by the contractor
conform to the contract quality requirements.

Contract monitoring 2 varies considerably both in intensity and in methodology,
depending on the importance and size of the contract effort, as well as the type of
contract. Cost-reimbursement-type contracts generally warrant closer monitoring
because the Government’s risk is higher than under a fixed-price contract. When
unsatisfactory contract performance is identified, the project officer must notify the
contract officer promptly so that remedial steps can be taken. Silence on the part of the
Government could be interpreted by the contractor as Government acceptance of
performance, which may differ from that stated in the contract. Such situations could
adversely affect the Government’s right to withhold payments, terminate for default, or
otherwise exercise certain rights under the contract. 3

MODIFICATIONS

A contract modification is any written change in the terms of the contract, that is,
statement of work, period of performance, quantity, price or other provisions of a
contract, whether accomplished in accordance with a contract provision or by mutual
agreement of the parties. During the contract life, different types of modifications may




1
 OAG is a component within the Office of Budget, Finance and Management. It is responsible for issuing
and administering SSA contracts, purchases, and grants.
2
 Department of Health and Human Services, Project Officers’ Contracting Handbook, Rev. 012303,
Section V, Post Award Administration, Part E: Contract Monitoring.
3
 Department of Health and Human Services, Project Officers’ Contracting Handbook, Rev. 012303,
Section V, Post Award Administration, Part F: Inadequate Contractor Performance.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)           C-1
be necessary to incorporate new requirements or to handle problems that develop after
the contract is awarded. Contract modifications must be made in writing by the contract
officer to preclude misunderstanding between the parties concerning work to be
performed. 4

Requests for unilateral modifications are initiated by the Government. Unilateral
modifications (such as administrative changes) are within the authority of the contract
officer, without agreement from the contractor. Modifications resulting from bilateral
modifications can be initiated by a written request from either the Government or the
contractor. For bilateral modifications, the project officer must prepare a supporting
memorandum to document the need for the modification and provide other appropriate
information necessary to process it including, but not limited to

 the type of modification recommended;
 the basis for the modification (explaining the circumstances—for example, who, what,
  when, where and why—that resulted in the need for the modification and the reasons
  why a modification should be made);
 a brief description of the contractor’s performance, as well as the identification of any
  known problem areas;
 an independent Government estimate of cost for the modification;
 the estimated total time necessary to accomplish the required services; and
 a complete description of the work to be changed or modified. 5




4
 Federal Acquisition Regulation (FAR), 48 Code of Federal Regulations (C.F.R.) § 43.000 et seq.; and
Department of Health and Human Services, Project Officers’ Contracting Handbook, Rev. 012303,
Section V, Post Award Administration, Part G: Contract Modifications.
5
 FAR, 48 C.F.R. § 43.000 et seq.; and Department of Health and Human Services, Project Officers’
Contracting Handbook, Rev. 012303, Section V, Post Award Administration, Part G: Contract
Modifications.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)            C-2
                                                                             Appendix D

Scope and Methodology
To achieve our objectives, we:

   Reviewed applicable sections of the Federal Acquisition Regulation, Administrative
    Instructions Manual System, Social Security Administration (SSA) Acquisition
    Regulations, Department of Health and Human Services Project Officers'
    Contracting Handbook, and the Prompt Payment Act.
   Reviewed the contract between SSA and Abt Associates, Incorporated, (Abt)
    (Contract Number SS00-04-60110) to understand the contract requirements.
   Interviewed the SSA project officer in the Office of Program Development and
    Research, contract officer and other staff in the Office of Acquisition and Grants
    (OAG), and staff in SSA’s Office of Finance (OF) to discuss the required contract
    deliverables and payment terms.
   Reviewed the records used to monitor the contractor's performance and determined
    whether SSA and Abt performed their duties in accordance with the contract.
   Reviewed documentation (vendor invoices, and task and delivery order information)
    supporting payments to Abt under the contract from September 2004 through
    December 2007.
   Obtained a list of paid invoices for this contract from OF. From these invoices, we
    identified the total amount paid to Abt. We reviewed 37 paid invoices that totaled
    $4,999,827 paid from September 2004 through December 2007. We reviewed the
    37 paid invoices to ensure (1) SSA paid amounts approved in the contract;
    (2) invoices were approved by the project officer before payment; (3) SSA paid
    invoices timely in accordance with the terms of the contract; and (4) invoice
    amounts were recorded correctly.
   Interviewed representatives from the four States involved in the Four-State Pilot.

We determined that the data used for this audit were sufficiently reliable to meet our
audit objectives. The entities audited were OAG and OF within the Offices of Budget,
Finance and Management and Retirement and Disability Policy, respectively. We
conducted our audit in Chicago, Illinois, and Baltimore, Maryland, from August 2007
through August 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                                                                                                              Appendix E

Benefit Offset National Demonstration (BOND) Contract Timeline




Note on Chart: The chart demonstrates some but not all of the costs and milestones related to the contract.

Note 1. This amount is reflected in the Base Contract.


Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                               E-1
Note 2. The demonstration pilots were designed to inform BOND. The States involved in the pilots were Connecticut, Utah, Vermont and
         Wisconsin.
Note 3. Early Intervention was added under Modification #3 (see page 1 of Appendix F).
Note 4. Health Benefits was added under Modification #5 (see page 1 of Appendix F).
Note 5. This date is reflected in the Base Contract. The costs reflect the award as of Modification #6 (see page 1 of Appendix F).
Note 6. WSO was added under Modification #7 (see page 1 of Appendix F).
Note 7. The conference with the four States was added under Modification #9 (see page 2 of Appendix F).
Note 8. Early Intervention was dropped under Modification #10 (see page 2 of Appendix F).
Note 9. BOND Stand Alone Calculator and Concurrent beneficiaries were added under Modification #13 (see page 2 of Appendix F).
Note 10. Both WSO and Health Benefits were dropped under Modification #15 (see page 2 of Appendix F).
Note 11. This estimated completion date is reflected in Modification #16 (see page 3 of Appendix F).




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                                                E-2
                                                                             Appendix F

Benefit Offset National Demonstration Contract
Modifications
  Modification       Effective              Purpose of Modification                   Award
                       Date
        1             12/30/04      Contract officer change.                              0

        2              3/3/05       Revised the contractor’s representative               0
                                    information.
        3              9/30/05      Incorporated an early intervention model in      $270,670
                                    the Benefit Offset National Demonstration
                                    (BOND) design.
        4             11/22/05      Provided information in a letter regarding            0
                                    the Electronic Subcontracting Reporting
                                    system.
        5              8/21/06      Incorporated a design for a health benefits      $404,657
                                    package and extended the contract to
                                    December 2006.
        6              9/14/06      Funded additional in-scope work for              $207,177
                                    development of benefit offset simulation
                                    model to inform the choice of treatment
                                    parameters and to generate bounded cost
                                    estimates for the demonstration.
        7              1/5/07       Funded additional in-scope work to              $2,081,570
                                    conduct pre-implementation tasks,
                                    including developing a pre-implementation
                                    plan, workforce investment boards, One-
                                    Stop Service Centers, and Work Support
                                    Organizations; developing a plan for
                                    procurement of fiscal agent; interim tasks
                                    for developing the BOND data warehouse
                                    pages; developing the BOND benefit
                                    calculator; developing a data security plan
                                    for BOND; furthering early intervention
                                    design specification; and developing public
                                    information specifications. Also extended
                                    the contract through June 30, 2007.
        8             12/29/06      Extended the contract at no cost to the               0
                                    government through January 31, 2007.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)         F-1
  Modification      Effective             Purpose of Modification                     Award
                      Date
        9            1/23/07     Provided funding for conference facilitation        $146,791
                                 services and reflected cost increases.b
        10           6/27/07     Deleted workforce investment boards and                  0
                                 One-Stop Service Centers and the early
                                 intervention design specification. Extended
                                 the contract period through August 31, 2007.
        11           8/27/07     Extended the contract period of performance              0
                                 until September 30, 2007.
        12           9/13/07     Added funding to the contract and extended           $49,983
                                 the contract period of performance through
                                 October 31, 2007.
        13           10/30/07    Added funding to the contract to develop the       $1,136,196
                                 BOND stand-alone calculator; required new
                                 bounded cost estimates, new sample design
                                 and final design parameters; added some
                                 references to concurrent beneficiaries; and
                                 extended the contract period of performance
                                 through January 31, 2008.
        14           1/29/08     Extended the contract period of performance              0
                                 until February 15, 2008.
        15           2/12/08     Added funding to the contract and extended         $1,833,595
                                 the contract period of performance through
                                 May 31, 2008; deleted the health benefits
                                 provision design; deleted plan for procurement
                                 of fiscal agent and replaced it with developing
                                 plans for earnings reporting and adjustment;
                                 deleted Work Support Organizations; added
                                 tasks to conduct validation of phase 1
                                 software component specifications; developed
                                 baseline architecture; tested SSA data
                                 exchange; developed public information
                                 specifications; added BOND site office
                                 specifications planning and implementation;
                                 developed BOND site office procedures
                                 manual; designed intensified benefit
                                 counseling; developed detailed specifications
                                 and cost estimates; conducted research and
                                 site visits; developed specifications and
                                 procedures for second stage intake;
                                 developed consent form; developed plans for
                                 BOND pilot; and developed plans and
                                 materials for BOND training.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)         F-2
  Modification         Effective                Purpose of Modification                       Award
                         Date
        16               5/27/08       Extended the contract completion date               $2,049,557
                                       from May 31, 2008 through September 29,
                                       2008 and included new tasks and
                                       deliverables, including progress
                                       memorandum for phase 2 testing, progress
                                       reports for implementation plans, phase I
                                       test plans of BOND Data System testing,
                                       progress memos for revisions to baseline
                                       architecture, code development and BOND
                                       Data System component testing, and
                                       development of benefit counseling
                                       recruitment materials.
Note a: Contract Modification #6 was to end December 31, 2006. Contract Modification #8 was initiated
to extend the end date of the contract to January 31, 2007. Contract Modification #7 was initiated to fund
pre-implementation tasks and extend the entire contract to June 30, 2007.
Note b: This conference related to the BOND contractor meeting with the Four-State Pilot participants.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)                F-3
                                                                             Appendix G

Benefit Offset National Demonstration Tasks
and Deliverables
    Task/
  Deliverable                                        Description
       1          Project start-up activities
       2          Design of the interventions
       3          Develop Technical Research Design
       4          Develop Evaluation Plans
       5          Develop Survey Plans
       6          Prepare Office of Management and Budget clearance package
       7          Development of Data Collection/Information Management Plans
       8          Final Report
       9          Health Benefits (Deleted) Modification 15, Effective 2/12/08
                  Time spent by Abt’s Project Director, Deputy Project Director, and Finance
                  and Contract Administrator on administrative functions; coordination of the
                  extended project team, including subcontractors and consultants; internal
                  contract review reports and meetings; preparation of progress reports to the
                  Social Security Administration (SSA); interaction with SSA project officer on
 Management
                  management issues; budget preparation, maintenance, and updating; invoice
                  checking and approval; labor planning and scheduling; and processing
                  multiple contract modifications, including additions, removals, and
                  modifications to the subcontract documents for numerous subcontractors and
                  the agreements for several consultants.
       10         Develop a Pre-Implementation Plan
       11         Workforce Investments Boards and One-Stop Service Centers
                  Work Support Organizations (WSO)
       12
                  (Deleted) Modification 15, Effective 2/12/08
                  Develop a Plan for Procurement of Fiscal Agent
       13         (Deleted and Replaced) Modification 15, Effective 2/12/08
                  Develop Plans for Earnings Reporting and Adjustment
       14         Interim Tasks for developing the BOND Data Warehouse
       15         Develop the BOND Benefit Calculator
       16         Develop a Data Security Plan for BOND
                  Further Early Intervention Design Specification
       17
                  (Deleted) Modification 10, Effective 6/27/07
       18         Develop Public Information Specifications
       19         Develop the BOND Stand Alone Calculator
       20         BOND site office specifications, planning and implementation
       21         Design Intensified Benefit Counseling
       22         Develop specifications and procedures for Second Stage Intake
       23         Develop plans for BOND Pilot
       24         Develop plans and materials for BOND training




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                                                                             Appendix H


Agency Comments




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      February 9, 2009                                                       Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General


From:      James A. Winn /s/
           Chief of Staff


Subject:   Office of the Inspector General (OIG) Draft Report, “Contract for the Benefit Offset National
           Demonstration Project with Abt Associates, Incorporated (A-05-08-18041)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report findings and recommendations is
           attached.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment:
           SSA Response




           Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)         H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CONTRACT FOR THE BENEFIT OFFSET NATIONAL DEMONSTRATION (BOND)
PROJECT WITH ABT ASSOCIATES, INCORPORATED” (A-05-08-180-18041)

In general, we agree with the report and recommendations. We have already made changes to
improve the overall management of the project as we begin to move toward implementation.
Our response to the specific recommendations is as follows.

Recommendation 1

Before awarding the next phase of BOND, ensure a detailed cost-benefit analysis of the BOND
design phase has been conducted and documented to support an agency decision to continue with
this contractor. As a part of the analysis, the agency should have: a) reviewed the current status
of the project; b) assessed what value the agency received for the costs already incurred; c)
determined whether the entire BOND project can be completed at a reasonable cost; and
d) documented the agency’s justification for the continued use of the current sole-source
contractor as well as the type of contract being used.

Comment

We agree with this recommendation, with the following explanation:

   1) Under current management, we have made substantial changes to the project design to
      reduce the costs and still meet the legislative requirements.

   2) We are currently working through the details of the benefit offset business process. Once
      this is completed, we anticipate having more accurate cost estimates.

   3) The design contract ended at the end of fiscal year 2008, and we are working now to
      finalize a Statement of Work for the implementation and evaluation contract. We are
      using information drawn from the detailed business process and detailed design
      documents to estimate the costs for the next award and to further assess whether we can
      complete the project at the current cost estimate ($100 million).

Recommendation 2

Establish a greater degree of management oversight by strengthening contract oversight roles and
responsibilities and more clearly defining contract requirements.

Comment

We agree. Under current management, we have already made changes to the project consistent
with the recommendation. The changes include:




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)       H-2
   1) working with other components (including the Office of Employment Support Programs,
   the Office of Communications, and the Office of Retirement and Survivors Insurance
   Systems) to carefully review the work performed by Abt;

   2) establishing an inter-component workgroup to develop more clearly defined contract
   requirements and the BOND business process;

   3) delaying the implementation contract until we have worked out the details of the business
   process, which will allow us to specify clearly defined contract requirements; and

   4) having the implementation and evaluation contract Statement of Work reviewed by other
   components.

Recommendation 3

Improve financial monitoring by implementing the procedures necessary to (a) identify the work
for which the contractor is requesting payment and (b) maintain documentation to prove to an
outside party that value was received for the money expended.

Comment

We disagree with the implication that we did not have sufficient information to determine the
deliverables and contract tasks associated with the costs. Our response is based on the wording
of the recommendation, which clearly refers to our ability to monitor the work for which the
contractor requested payment, and not just record-keeping. With regard to monitoring, different
contractors report and bill differently. In this contract, the combination of the monthly invoices,
the monthly progress reports, and the very close communication between the Contract Officer
Technical Representative (COTR) and the contractor’s project director provided enough
information to make the determination that the contractor was billing correctly for each task.

Recommendation 4

Conduct and document interim and final evaluations of the contractor’s performance in
accordance with the contract and as recommended by the Federal Acquisition Regulation (FAR).

Comment

We agree. Please note that the Contracting Officer generated an interim performance report for
the COTR in accordance with FAR 42.1502(a) on June 30, 2008. Subsequently, the contractor
submitted comments to the Contractor Performance System (CPS) in accordance with FAR
42.1503(b) on September 8, 2008, at which time the Contracting Officer finalized the interim
report. Additionally, the Contracting Officer generated a final performance report for the COTR
in accordance with FAR 42.1502(a) during November 2008. Subsequently, the contractor
submitted comments to the CPS on December 18, 2008. The Contracting Officer finalized the
report at that time. The draft report should be corrected to reflect these facts.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)         H-3
Recommendation 5

Ensure timely and meaningful participation occurs with other parties associated with the
demonstration project, such as the States involved in the Four-State Pilot, to enhance the total
project.

Comment

We agree. While we concur with this recommendation, we believe we have been in compliance
with this recommendation. Current management recognized this shortcoming and, since taking
over the project, has taken steps to ensure that timely and meaningful participation occurs with
other parties associated with the demonstration project. It is important to note that the primary
intent of the Four-State project was to assist us in better understanding
operational/implementation issues of a benefit offset. The Four-State projects have achieved this
goal. We instituted monthly project calls with the four States, which allow us the opportunity to
receive direct feedback from the sites, and ongoing conversations with our Office of Public
Services and Operations Support on the operational issues related to the offset for participants in
the Four-State sites.

The draft report states that “earlier communications with the States regarding the project’s design
would have enhanced its usefulness to SSA.” However, recruitment for the pilot project did not
end until December 2006, and we received the first interim evaluation findings in the spring of
2008. Nevertheless, in March 2007 we convened a joint conference with staff and management
from the States involved in the pilot and the BOND contractor. The States shared valuable
comments and recommendations during the conference. These were based on their expertise in
the field and not on any findings from the pilot. This information helped us further develop the
design for the project, which was finalized in September 2008.

Finally, both the BOND and the State projects had the same COTR, who was in constant contact
with both the BOND contractor and the pilot States.

Recommendation 6

Ensure the evaluation phase of the BOND contract is conducted by an independent party.

Comment

We disagree. We believe any future contract, with appropriate built-in safeguards, can provide
adequate mitigation against conflicts of interest.

The FAR allows the agency to avoid, neutralize, or mitigate conflicts of interest. We feel we
have appropriate mitigation strategies and have done the following:

          Evaluation structure. The evaluation for BOND has two major components:
           quantitative evaluation outcomes (impact) and a process evaluation that will assess
           the implementation of the project. With regard to the impact evaluation, we believe



Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)            H-4
           that a random assignment design will allow for a transparent evaluation, the results of
           which cannot be misconstrued by the evaluator. The methodologies used to conduct
           this evaluation will be heavily quantitative and standardized, and will involve few
           judgments by the contractor. We are confident that this design will prevent a conflict
           of interest from occurring. With regard to the process evaluation, the contractor will
           not implement the project alone. The contractor will conduct the recruitment and
           random assignment, collect data, and monitor the fidelity of treatments. We will
           implement the programmatic aspects of the demonstration, and we will calculate
           benefits and send notices to the beneficiaries. The contractor may make
           recommendations during project implementation based on difficulties it perceives,
           e.g., additional training, but this would be only for purposes of ensuring that the
           intervention is consistent with the design.

          Social Security Staff Oversight. Our Office of Program Development and Research
           (OPDR) staff will continue to provide strong oversight. In addition to our carefully
           monitoring the contract, we would like to note that task 2 of the current draft
           Implementation Statement of Work allows for a project advisory board within the
           implementation contract. Under this task, the contractor shall formally establish an
           advisory group of approximately nine individuals, with experts in the fields of
           individuals with disabilities, employment, income support programs, benefits
           counseling, random assignment evaluations, and other domains that would
           complement contractor staff expertise in implementation and evaluation. The
           advisory group is intended to provide the contractor with the opportunity to consult
           with and engage experts who can provide advice and guidance to us and the
           contractor on the overall study implementation and approach, and those who can
           provide technical expertise on implementation of the evaluation.

Since we sent you our July 2008 comments, we have also moved to strengthen our independent
research advice. We are working to establish a team of expert consultants to review and critique
the contractor’s work. This will also help address a recent recommendation made by the
Government Accountability Office that we use an “expert panel to advise it about the projects on
a regular basis.”

The use of an expert panel has proven to be an effective way of obtaining independent evaluation
of our other projects. For the early phases of this project (prior to 2002), we used a team of
seven expert consultants to provide a critical review of our plans for the project. The team
included the following experts:

   Economics: Donald Parsons, Professor, George Washington University; John Rust,
   Professor, University of Maryland College Park.

   Sociology: Nancy Tuma, Professor, Stanford University; Judy Tanur, Professor, SUNY-
   Stony Brook.

   Statistics: Joseph Sedransk, Professor, Case Western Reserve University




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)        H-5
   Public Health: Donald Patrick, Professor, University of Washington

   Vocational Rehabilitation: David Vandergoot, PhD, Essential Solutions.

These experts played an important role in the assessment of demonstration designs to measure
induced entry and helped assess the sample size initially proposed for the demonstration. We
have used this approach for other projects, such as the use of an expert panel from the Institute of
Medicine to provide advice on the National Study of Health and Activity. We believe that this
approach is the most effective way to provide independent oversight of the project.

In addition, we have recently drafted a task order to bring additional analytical support to OPDR
to assist with methodological issues on our demonstrations.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)         H-6
                                                                              Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division (312) 353-0331

   Annette Dunn, Audit Manager, Chicago Office (312) 886-4160

Acknowledgments
In addition to those named above:

   Lorrie Clement, Auditor-in-Charge

   Nichole Purnell, Program Analyst

   Linda Smid, Auditor

   Wai Ho Yung, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-08-18041.




Contract for the Benefit Offset National Demonstration Project with Abt (A-05-08-18041)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
